IN THE
SUPREME COURT OF UNITED STATES

NAORA BEN-DOV,
Plaintiff/Appellant,
v.
SHOSHANA ZELDA SRAGOW (aka STACY SUZANNE SRAGOW),
ALLEN PHILIP SRAGOW,
TAMAR MIRIAM BRETON,
Defendants/Respondents

CERTIFICATE OF COMPLIANCE

Pursuant to Supreme Court Rule 33.1(h), I hereby certify that the Petition for
a Writ of Certiorari from Plaintiff Naora Ben-Dov, contains 3,694 words, as counted
by a word processor, excluding the parts of the document exempted by Supreme
Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on July 31, 2019

/s/ Naora Ben-Dov
Naora Ben-Dov
Pro Per

